Record Press Inc., 229 West 36th Street, New York, N.Y. IDDIB•
Tel: (212) 619-4949• Fax No. (212) 608-3141
STATE OF NEW YORK.
SS:

81228

AFFIDAVIT OF SERVICE

COUNTY OF NEW YORK
Howard Daniels being duly sworn. deposes and says that deponent is not party to the action, and is over 18 years of age.
That on the 24th day of December 20l9 deponent served 3 copies of the within
PETITION FllR AWRIT llF CERTIORARI

upon the attorneys at the addresses below. and by the following method:
BY FEDERAL EXPRESS NEXT BUSINESS DAY DELIVERYAND ELECTRONIC MAIL

Zachary C. Oren. Esq
First Assistant Corporation Counsel
Department of Law
Utica Corporation Counsel
I Kennedy Plaza
Utica.NYl3502
(315) 792-0!71
Attorneys for Respondents

I. Howard Daniels, declare under penalty of perjury under the laws of the United States of America that the foregoing is true
and correct. executed on December 24. 2Dl9. pursuant to Supreme Court Rule 29.S(c). All parties required to be served, have
been served.

.dkJ L[)~
Howard Daniels

Sworn to me this
December 24. 2□18
Case Name: Michael J. Rose v. The City of Utica

NADIA ROSWALD HAM ID
Notary Public. Stale of New York
No. D1DS6101366
Oualified in Kings County
Commission Expires November 10. 2023

~JJ
~

.

